13

No.

3fn W\)t Supreme Court of ttje fHntteb States
JANE DOE, Petitioner
v.
DARDANELLE SCHOOL DISTRICT

On Petition For Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

George Rozzell
Mason L. Boling
Counsel of Record
KEITH, MILLER,
BUTLER, SCHNEIDER
& PAWLIK, PLLC
224 S. 2nd ST.
. ROGERS, AR 72756
(479) 621-0006

1

Questions Presented
In Davis v. Monroe Cty. Bd. of Educ., 526 U.S.
629, 633 (1999), this Court held that a recipient of
federal education funding may be liable for damages
under 20 U.S.C. § 1681 et seq. (“Title IX”) for
discrimination in the form of student-on-student
sexual harassment where the recipient acts with
deliberate indifference. The Court further noted that
“courts should refrain from second-guessing the
disciplinary decisions made by school administrators,”
Id. at 648. And the Court wrote that the recipient may
only be held liable where the sexual harassment “can
be said to deprive the victims of access to the
educational opportunities or benefits provided by the
school.” Id. at 650.
The questions presented are:
1. Whether a recipient of federal funding may
be held liable where it takes any action in
response
to
complaints
of
sexual
harassment.
2. Whether a victim can be deprived of
educational opportunities or benefits absent
a decline in grade point average.

u
Parties to the Proceeding
Jane Doe (originally named as John Doe, individually
and as a parent and next friend to Jane Doe, a minor),
Petitioner.
Dardanelle School District, Respondent.

Related Proceedings
Jane Doe v. Dardanelle School District, No. 17-cv00359, U.S. District Court for the Eastern District of
Arkansas, Western Division. Judgement entered
August 9, 2018.
Jane Doe v. Dardanelle School District, No. 18-2816,
U.S. Court of Appeals for the Eighth Circuit.
Judgement entered June 27, 2019.

Ill

Table of Contents
Questions Presented.........

1

Parties to the Proceeding

n

Related Proceedings.........

n

Table of Authorities..........

IV

Citations of Opinions........

1

Statement of Jurisdiction

1

Statutes and Regulations

1

Statement of the Case......

2

I. PROCEDURAL HISTORY AND
JURISDICTION............................................. ....... 2
II.

STATEMENT OF FACTS........................... 3

Reasons for Granting the Writ............................. 7
I. IN NOT “SECOND-GUESSING” SCHOOL
DISTRICT ACTIONS, COURTS ARE
RUBBER-STAMPING EVEN “CLEARLY
UNREASONABLE” RESPONSES TO SEXUAL
HARASSSMENT.
7
II.
“EDUCATIONAL OPPORTUNITES AND
BENEFITS” GUARANTEE MORE THAN
PASSING GRADES.
11
Conclusion

13

IV

Table of Authorities
Cases
Davis v. Monroe Cty. Bd. of Educ.,
526 U.S. 629 (1999)................................. ...... .passim
Doe v. Sch. Bd. of Broward Co., Fla.,
604 F.3d 1248 (11th Cir. 2010)....................
8, 9
Doe v. Taylor Indep. Sch. Dist.,
15 F.3d 443 (5th Cir. 1994)..........................
9
Estate of Barnwell v. Watson,
880 F.3d 998 (8th Cir. 2018)........................
8, 6
Jennings v. Univ. of N. Carolina,
482 F.3d 686 (4th Cir. 2007)........................
13
Johnson v. Dallas Independent School Dist.,
38 F-3d 198 (5th Cir. 1994)..........................
12
Murrell v. Sch. Dist. No. 1,
186 F.3d 1238 (10th Cir. 1999)...................
9
Vance v. Spencer Cnty. Pub. Sch. Dist.,
231 F.3d 253 (6th Cir. 2000).......................
9
Statutes
20 U.S.C. § 1681

1,2

Rules
Fed. R. Civ. P. 56

2

1
Citations of Opinions
1. Eastern District of Arkansas; Case No. 4:17CV-00359-JLH, 2018 WL 3795235 (E.D. Ark.
Aug. 9, 2018).
2. Eighth Circuit Court of Appeals; Case No. 182816; 928 F. 3d 722 (8th Cir. 2019).

Statement of Jurisdiction
The Judgement of the Court of Appeals for the
Eighth Circuit was entered on June 27, 2019. This
Court’s jurisdiction rehes upon 28 U.S.C. §1254.

Statutes and Regulations
20 U.S.C. § 1681 (“Title IX”) guarantees that
“[n]o person in the United States shall, on the basis of
sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under
any education program or activity receiving Federal
financial assistance....”

2
Statement of the Case
I.

PROCEDURAL HISTORY AND
JURISDICTION

On May 31, 2017, Doe, through her father, filed
her Complaint in the District Court alleging violations
of her civil rights under Title IX of the Education
Amendments Act of 1972 (“Title IX”), 20 U.S.C. §
1681, et seq., and the Civil Rights Act of 1871 (“section
1983”), 42 U.S.C. § 1983. App. 1. The District Court
had jurisdiction to hear this action pursuant to 28
U.S.C. § 1331 in that each claim thereunder
constitutes a federal question. The District Answered,
generally denying the allegations and raising
affirmative defenses. CA JA 15.
On July 12, 2018, the District moved for
summary judgment pursuant to Fed. R. Civ. P. 56. CA
JA 56. Doe filed a response on August 2, 2018, CA JA
105, and the District filed its reply on August 9, 2018.
CA JA 126. That same day, without a hearing, the
District Court issued its Order and Opinion granting
summary judgment in favor of the District. CA JA
135. The District Court held, in relevant part, that the
actions of the District were not clearly unreasonable
and that Doe was not deprived of any educational
benefits or opportunities.
Doe timely appealed. CA JA 145. The Eighth
Circuit affirmed. Due to the important societal
considerations for which this case stands, and to
address the split of the circuits about the deference
enjoyed by educational funding recipient institutions
for these matters under Title IX, this Petition follows.

3
II.

STATEMENT OF FACTS

In October 2014, Appellant Jane Doe (“Doe”)
was a freshman student in Appellee Dardanelle
School District in Dardanelle, Arkansas (“the
District”) when she was assaulted on school grounds
by another student, R.C., who touched her breast and
called her a gendered slur. CA JA 100. Doe reported
the assault to school administrators who noted that
similar incidents had evidently occurred “several
times.” Id.; App. 61(a). The District’s only responsive
action was to speak “sternly” with R.C. and to advise
Doe that it is a woman’s responsibility to set
boundaries to make sure men don’t sexually harass or
assault them. CA. JA. 97, 100; see also App. 50(a)51(a). At least one other student had complained of
similar conduct against R.C., though because of the
District’s failure to document the event, it is unclear
when. CA JA 102; App. 49(a), 60(a).
Then, in October 2015, R.C. sexually assaulted
and battered Doe in their shared classroom. CA JA
101; App. 50(a). Doe stated that R.C. grabbed her
breast, attempted to force her hand onto his penis, and
stuck his hand up her shorts, touching her vagina. CA
JA 101; App. 31(a). Once more, the District’s response
was to give R.C. a “talking to,” ultimately deciding
based on his statement alone that the assault did not
happen. CA JA 101; App. 57(a).
As the result of the 2015 incident, Principal
Lawrence and Vice Principal Balloun instructed the
teacher in whose class the assault occurred, to ensure
that the two students were kept separated in her
classroom. She was also told to keep a little more light
on in the classroom when showing movies This was
the only response and action taken by the school in

4
response to the sexual assault - to separate a student
in the class from another student he had sexually
assaulted (not remove him), and to keep the lights
brighter. No disciplinary hearing nor investigation or
finding on whether the School District determined any
policy had been violated occurred. App. 57(a).
Instead, after the 2015 incident, Balloun met
with RC along with the school resource officer. Id.
According to him, he and the SRO questioned the
assailant extensively, who denied the assault. Based
on this, Balloun decided not to involve Burris, the
Title IX Coordinator, who had never received a Title
IX complaint. App. 43(a). Based on R.C.’s denial and
“the look on his face,” and without conducting any
further investigation, Balloun concluded that the
2015 incident did not take place. CA JA 99. Balloun
never questioned Jane Doe about it. App. 57(a).
Balloun failed to pursue any other witnesses or
corroborating evidence or even speak with Doe. Id.
Until April 2016, when Doe informed her
parents of what happened and they intervened, the
District kept the students in the same classes and did
not inform their teachers or parents. CA. JA. 101-02;
App. 64(a). During this time, R.C. continued to
confront Doe at school and verbally abuse her. CA. JA.
103. At no time during the interim did the District
inform Jane Doe’s special education teacher, Ms.
Duffel - despite Jane Doe and R.C. being in the same
special education class - of the 2015 incident, nor did
it tell Ms. Duffle to separate the two. CA JA 101.
After her parents became aware and involved,
in April 2016, Principal Lawrence called Doe in and
accused her of lying, rather than interviewing her and
asking her questions. App. 50(a). Only at that time

5
was R.C. removed from the classroom where the
assault occurred. App. 57(a). Lawrence also wrote a
memorandum of the recent events - improperly dated
nonetheless - referencing, among other things, her
subsequent conversation with Doe and for the first
time, her parents, that “we remain convinced we
managed the situations appropriately,” and, that at
that point, “[she] is making a hotline report, well after
the fact, and turning the whole thing over for a police
investigation.” App. 65(a).
Following the assaults and their revelation to
her parents, Doe was treated and diagnosed by Dr.
Pamela Woodson with recurrent major depressive
disorder with anxious distress. CA JA 103; App. 65(a)71(a). She began self-harming by cutting, reporting
that she feared her attacker and that she felt the
District blamed and emotionally abused her. CA JA
103; App. 65(a)-71(a).
According to a teacher, after the incidents, Doe
became more quiet and withdrawn in class and did not
want to socialize much outside of a group of students
she felt comfortable with, which included her brother.
CA JA 103; App. 65(a)-71(a). That regression
continued into the 2016-2017 school year, with her
“shrinking] away from [her teacher] whenever she
tries to help; she never, never participates or asks for
help.” App. 72(a).
Doe’s mental health treatment notes that that
Jane Doe felt that school administration was blaming
her and not believing her because they had not
followed through on her report, to the point that she
felt she was being emotionally abused by school
administration. App. 65(a)-71(a). While at school,

6

Jane Doe experienced increased anxiety and felt
intimidated by administration. Id. at 71(a).
Despite her suffering, and although during the
two years she suffered from physical sexual assaults
and batteries at school Doe received a GPA of less
than 2.0, Doe persisted, and her GPA improved to a
2.7 her junior year. She graduated in 2018. App.
73(a); CAJA 130.

7
Reasons for Granting the Writ
Courts in the Eighth Circuit are increasingly
reluctant to “second-guess” school districts in cases
involving student-on-student sexual harassment,
relying on the statement in Davis that “courts should
refrain from second-guessing the disciplinary
decisions made by school administrators.” 526 U.S. at
648. This common-sense observation risks becoming a
rubber-stamp, and the Court should grant certiorari
to clarify what actions and inactions are “clearly
unreasonable in light of the known circumstances.” Id.
Further, the Eighth Circuit Court of Appeals held
in this case that because “Doe’s grade point average
increased in both her junior and senior years, and she
graduated on time,” any deliberate indifference
cannot be said to have denied Doe “access to the
educational opportunities or benefits provided by the
school.” App. 7(a) (quoting Davis, 526 U.S. at 650).
This Court should grant certiorari and hold that
academic performance, standing alone, does not
reflect the totality of educational opportunities and
benefits offered by a school.
I.

IN NOT “SECOND-GUESSING”
SCHOOL DISTRICT ACTIONS,
COURTS ARE RUBBER-STAMPING
EVEN “CLEARLY UNREASONABLE”
RESPONSES TO SEXUAL
HARASSSMENT.

As stated supra, the school district in this case
merely “talked to” a student accused of
inappropriately touching multiple students multiple
times across multiple months and left that student in

8
close proximity to one of his victims, having failed to
inform classroom teacher(s) or anyone else, including
parents.
The Eighth Circuit panel concluded that this
response constituted some action, and therefore the
school should not be second-guessed. See App. 4(a)
(citing Davis, 526 U.S. at 648); App. 5(a) (“Vice
Principal Lynn Balloun discussed T.R.’s complaint
with R.C., who promised that he would stop.”); App.
5(a) (“But Dardanelle did take action after the first
incident.... Balloun and Counselor Cynthia Hutchins
discussed the incident with R.C. Both Balloun and
Hutchins ‘sternly’ talked to R.C. ‘about proper
behavior.’”); see also App. 6(a)
(the “‘clearly
unreasonable standard is intended to afford flexibility
to school administrators’”) (quoting Estate of Barnwell
v. Watson, 880 F.3d 998, 1007 (8th Cir. 2018)). The
District Court held the same. See App. 21(a) (“The
Court will not second-guess these disciplinary
decisions by the District. There were undoubtedly
other options available to the District, perhaps even
more prudent ones, but the District is not subject to
liability for failing to take the most reasonable course
of action or even for responding negligently.”).
Although this virtually absolute deference to
school administrators pervades the opinions of the
Eighth Circuit Court of Appeals and district courts
throughout the circuit, other courts interpreting
Davis have taken a different approach and correctly
ruled that such nominal judicial review “permit[s]
future school districts to satisfy their obligations
under Title IX without ever evaluating the known
circumstances at all.” Doe v. Sch. Bd. of Broward Co.,
Fla., 604 F.3d 1248, 1263 (11th Cir. 2010) (reversing
a grant of summary judgment because the court could

9
not “accept the district court’s conclusion that merely
because school officials ‘confronted [the assailant],’
‘obtained statements’ from the complaining students,
and ‘informed the
[School Board’s Special
Investigative Unit] of the sexual misconduct
allegations’ (while omitting material details), the
School Board’s response was reasonable.” The
Eleventh Circuit noted that it ruled against the school
district “even though,” as in this case, “it is undisputed
that Principal Scavella and the School Board took
some action in response to K.F. and S.W.’s sexual
harassment allegations.” Id. at 1260 (emphasis in
original).
Similarly, the Sixth Circuit Court of Appeals in
Vance upheld a jury verdict against a school district,
observing that “the only evidence before this Court
reflecting the Defendant’s responses to the [incidents]
involves talking to students.” Vance v. Spencer Cnty.
Pub. Sch. Dist., 231 F.3d 253, 263 (6th Cir. 2000)
Likewise, in Murrell, the Tenth Circuit Court of
Appeals reversed dismissal of a Title IX claim on the
basis of allegations that the school district “never
appropriately disciplined” the assailant, “and he
continued to enjoy access to unsupervised parts of the
GWHS facility.” Murrell v. Sch. Dist. No. 1, 186 F.3d
1238, 1248 (10th Cir. 1999).
Moreover, like here, the school district in Murrell
had knowledge of the offensive conduct from “almost
the moment it began to occur, and not only refused to
remedy the harassment but actively participated in
concealing it, including ... refusing to inform [the
victim’s] mother themselves when presented with
myriad opportunities to do so.” Id.; see Doe v. Taylor
Indep. Sch. Dist., 15 F.3d 443, 457 n.12 (5th Cir. 1994)
(“We can foresee many good faith but ineffective

10
responses that might satisfy a school official’s
obligation in these situations,” including “notifying
the student’s parentsQ or removing the student from
the teacher’s class.”).
These cases stand in conflict with the application
of law in the Eighth Circuit, and this Court should
grant certiorari to resolve the discrepancy. Davis
rightly recognized the challenges facing school
districts and the somewhat novel application of
discipline in school settings. But Davis was not meant
to be a shield—in fact, the dissenting justices feared
the opposite. Not every school district decision
deserves deference; some school district responses to
complaints of sexual harassment and assault are
clearly unreasonable under the circumstances. If the
response in this case does not demonstrate deliberate
indifference—viewing the facts in the light most
favorable to Doe and drawing all reasonable
inferences in her favor—Davis might as well not exist.
Indeed, the facts potentially giving rise to liability
in Davis are strikingly similar to those in this case.
Despite multiple victims, the school district’s response
was to “threaten [the assailant] a little bit harder.”
526 U.S. at 635. Otherwise, “at no point during the
many months of his reported misconduct was G. F.
disciplined for harassment.” Id. As recognized by the
courts below in this case, the supposed “discipline”
amounted only to “sternly” talking to the abuser. See,
e.g., App. 4(a)-6(a).
Similarly, as described supra, the school district
failed to separate the students, just as it failed in
Davis. 526 U.S. at 635 (“Nor, according to the
complaint, was any effort made to separate G. F. and
LaShonda. On the contrary, notwithstanding

11
LaShonda’s frequent complaints, only after more than
three months of reported harassment was she even
permitted to change her classroom seat so that she
was no longer seated next to G. F.”) (citation omitted).
And, like here, the school district “had not instructed
its personnel on how to respond to peer sexual
harassment and had not established a policy on the
issue.” Id.\ cf. App. 40(a)-48(a) (describing the lack of
instruction and pohcies in this case).
The panel decision below is incompatible with
Davis and other circuit court decisions interpreting
Davis. This Court should grant the petition and
reverse the Eighth Circuit Court of Appeals.
II.

“EDUCATIONAL OPPORTUNITES
AND BENEFITS” GUARANTEE MORE
THAN PASSING GRADES.

The Eighth Circuit Court of Appeals held in this
case that because “Doe’s grade point average
increased in both her junior and senior years, and she
graduated on time,” any deliberate indifference
cannot be said to have denied Doe “access to the
educational opportunities or benefits provided by the
school.” App. 7(a) (quoting Davis, 526 U.S. at 650).
This narrow view of “educational opportunities or
benefits” does not recognize the vital role schools play
in students’ fives. Schools do not exist merely to assign
homework and grade papers. They are homes-awayfrom-homes, and they offer students an environment
to grow socially and become healthy, productive
adults. Indeed, schools “may be said to control
children’s environments to the same or even greater
degree than state-sponsored foster care services,
which have been held ... to bear affirmative

12
obligations to their client children.” Johnson v. Dallas
Independent School Dist., 38 F.3d 198, 208 n. 7 (5th
Cir. 1994). The school district’s response in this case
deprived Doe of that environment—of a place she
could learn and mature without fear of harassment
and attack.
As explained supra, Doe began to suffer from
depression stemming from the Defendant’s failure to
remedy or prevent the assaults, and she began cutting
her arms to inflict self-harm. App. 65(a)-71(a).
According to her therapist, Doe presented with
depression and cutting in May 2016, and stated that
she was “scared that he [the abuser] is going to try to
do something else to me.” Id. She reported that the
abuser was permitted to contact her at school, and he
continued to verbally abuse her, including taunting
her and calling her names. Id.
Doe
also
reported
feeling
that
school
administrators were “blaming her and did not follow
through on her report.” Id. She felt “anxiety at school”
and reported “few friends.” Id. She stated that she was
“being emotionally abused by the school principal,”
and she reported “intimidation since the incident.” Id.
The therapist determined that she was “depressed,
fearful, withdrawn, irritable, angry.” Id.
On these facts, viewed in the light most favorable
to Doe, it cannot seriously be said that the school
district provided Doe all the educational benefits and
opportunities inherent in enrollment. Doe walked the
halls in fear, and her deteriorating mental health
unsurprisingly resulted in a diminished social hfe and
a tendency to withdraw. See Davis, 526 U.S. at 634
(noting that one alleged injury in that case was
suicidal thoughts). Thus, the fact that Doe’s grades

13
eventually improved and she managed to graduate is
a testament to her strength, her recovery, and the
support of her family. It does not mean the school
district provided the educational benefits and
opportunities to which she was entitled. See Jennings
v. Univ. ofN. Carolina, 482 F.3d 686, 699-700 (4th Cir.
2007) (“slight improvements in [student’s] grades”
does not mean she was not denied educational
opportunity; “[i]f anything, it shows how hard
[student] was trying, and what she believed she was
achieving, in spite of the hostile environment.”).
Moreover, at the summary judgment stage, who is to
say that Doe’s grades would not have been even better
absent the ongoing harassment? See id. at 706
(Gregory, J., concurring) (“Discriminatory impact
would be shown if [student’s] grades, though
improved, had risen less than they would have had
she not been subjected to a hostile environment.”).
Nothing in the text of Title IX requires a student
to fail out of school to be deprived of educational
benefits. This Court should grant certiorari to reverse
the Eighth Circuit Court of Appeals and make that
point clear.
Conclusion
For these reasons, Petitioner respectfully requests
that this Court grant the petition for certiorari.
September 25, 2019

14
Respectfully submitted,
George Rozzell
Mason L. Boling
Counsel of Record
KEITH, MILLER,
BUTLER, SCHNEIDER
& PAWLIK, PLLC
224 S. 2nd ST.
ROGERS, AR 72756
(479) 621-0006
Counsel for Petitioner

